Supreme Court, U.S.
FILED

JUL 2 0 2021
■Nor

ii” K'K
J of
q

IN THE
SUPREME COURT OF THE UNITED STATES

^EP,inO ^Kee.Q

— PETITIONER

(Your Name)
vs.

Chpiao

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Cikgjif CooP^i of AfPed/s
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
'

v.

“SK/AtO CrKe&O

&Dc. 4(6505

/

(Your Name)

'V.O.'Bax V36
(Address)

^^icHnOdfe., (jrfi

3(0

(City, State, Zip Code)

RECEIVED
A
(Phone Number)

n

L 2 3 2021
Be qf the clerk
lFf/iL- COURT. U.S.

QUESTIONS PRESENTED

1. Whether the eleventh circuit erred in holding that no
constitutional violations in Green's trial /When the police officer
who investigated Greens case was allowed to participate in the jury
selection process and testify in the case.When this ruling is in
conflict with other circuits ,who state it is a Sixth amendment and
Fourteenth amendment violation and inherent prejudice exists ?

2. Green alleged ineffective trial counsel for not challenging the
states case to proper adversarial testing by not filing a Motion to
suppress on the Warrantless seizure. The state habeas court replied
to the error in its final report and recommendation .Did the
Eleventh circuit err in determining this error was not exhausted ?

3. Mr. Green alleged Appellate counsel ineffective for his failure to
investigate the Warrantless search and seizure and to enumerate as
error on direct appeal that green was denied a full and fair hearing
on the fourth amendment violation. The state Habeas court replied

/

to the error in its final report and recommendations.Did the
Eleventh circuit err irndeteTmining thiserror-was-unexhausted-?-

4. Did the Eleventh circuit err in not addressing Greens Fourth
amendment violation, Where evidence was used to convict derived
from the Warrantless seizure and a full and fair hearing was not
provided ? Does a states procedural default hinder Greens
opportunity to address a Fourth amendment violation in a federal
habeas

28 U.S.C.2254 Where a full and fair hearing was not

provided ?

• 6

a

LIST OF PARTIES

[A All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
T) <ScloSo/Ze- S -fab

f/tf/J. /UdLftC-l /_ „ Ujui^d

T)is-fpicf

Judgt-

Cfr{lltS€L} U^tlSSfit
d1ee.lC iUQge.y ^e/U
Dc&Ze^

jf/S/i/feS

HM etLSotJ;
GiiA^A-Mf

~

Side 'pfcosec.<-> (~OtL

l4o AJ J)ftUcd
liofj

~

-f-tziA-f Jcjclje.

KdisiitJe^

4,

-

Sl&k

Cofi.pos

C.oufJSe.1 fod

Jo<Jcje.

\ZespoiUc!e/jf

ftp

l4otj LCfciUdiu<L - Upded sides
5 feel, 3d I ftp

- Side- fippeJUk

(fjilhms f fiduey

sbd bd«(

Course.!

'Jud^

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

PA

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

?A

STATEMENT OF THE CASE

?,B

REASONS FOR GRANTING THE WRIT

,P/Z 7

CONCLUSION

INDEX TO APPENDICES

oF -TU<t EleVe<o+k CUcu.t Co^t of Afpeds
C/)S£ £ 30 - ISS3 5 - <5
Decided 3-/7- 909-1

APPENDIX

M

APPENDIX i>

JIJ.

- f-,'*W
(secovD

»«»«*)

APPENDIX

^3

D'stect Coan.f'

O/zJet

APPENDIX CL . > f
-piMtucr

44

/
Covfrf

APPENDIX

Cooed CASe # l '',<f'
VecJeJ ,o-?.-7-?os>o Mi-6 CMS
CfisSe. ■£

AA..

liM-'CV-<93^/- Mt-B -C/*S

C/tse

t-lfilSeiK PumI anVee
vended

APPENDIX :

is» *

$ £>

M*-S -

£ leu&tJ /A

/s

Cktud Ce0*1- oP We* J
e-cOA) Si

0

~De.AJ teJl
trio 1u

Co ufct’-

of

CreoflQift

0f 'fooUPo ckUso

ApJ1 wt (p°

A CeA

'Ptjlhsh £

poP l
*00

II I

foA.

S

TABLE OF AUTHORITIES CITED
-Page

Gases:

V.K

Baldwin v.Reese, 541 U.S. 27,29.(2004)
6alifdmia^TFombettaT4G7iJTS7485"

TlJo/PM

1

Collins v.Virginia, 138 S.ct 1663,201 L.ed 2d 9(2018)

T.H

Court v. Livesay, 868 F.2d 842 6th Cir.
Crane v.Kentucky, 476 U.S.683
fiavK-Jv^ATa^kaT41-5-UrS7308{l-974)
Edward v.Carpenter, 529 U.S.446,451,120 S.ct 1587(200)
Estelle v.Williams,425 U.S. 501,48 L.ed2d 126(1976)
QftM&le, (/. OKlfr^oM»v 533 frVA
Hayes v. Missouri, 120 U.S.68,30 Led 758

?.io ■
P.l*f

7UO

Henson v Wyrick,634 F.2d 1080 8th Cir
Horton v.California, 496 U.S.128,,136-137

T, 16

House v.Balkcom,725 F.2d 608 11th Cir.

9 is

Huynh v.King,95 F.3d 105 11th Cir.(1996)

PM

Irvin v.Dowd 366 U.S.717,6 l.ed 2d751

c * » .

Illl

p.io

pft <j e
Kimmel v Morrison, 477 U.S.365 106 S.ct 2574(1986)
Florida v Jardines,569 U.S.l, 133 S.ct 1409(2013)

• J>(3

Mapp v. Ohio, 367 U.S.643,81 S.ct 1684

MARTINEZ V. STATE, 0808019298 WCC. Delaware supreme court V,
(4-29-2010
Murray v Carrier,477 U.S.478 (1986)
?, 19

Neelley v. Angle,138 F.3d 917 11th Cir (1998)

P. 19

Nix v.Williams, 467 U.S.431,81 l.ed 2d 377(1984)

P'5

Ogle v. Johnson,488F.3dl364(2007)
Picard v Conner,404 u.s at 276,92 S.ct at 512
Pilchak v. Camper,741 F.supp 782 8th Cir
Snowden v.Singletary,135 F.3d732,735.11th Cir

'V.po

Stone v.Powell,428 U.S.465

• p.WjT.rt'P.is

Strickland v Washington, 466 U.S.668

p.?o,

Townsend v. Sain,372 U.S.293
United States v. David carter,2009 u.s.Dist Lexis 9607(2009)
Lf b£>
t t

t

G>4S'
t

l l II

PJ3
7? /S

as. 14 rwn&vos s^z f>?<*

i

7.10
7?^

i^cd l(i&g"

U.S. v. Frady,456 U.S.156
United States v Lamas,930 F.2d 1099 5thCir(1991)

^ &

U.S. v. Satterfield,743 f.2d 827 llthCir (1984)

V25
Utah v. Strieff,136 S.ct 2056,2061(2016)
Warden v. Hayden,387 U.S.294,87 S.ct 1642
Wong sun v.United states,371U.S.471,83 S.ct 407(1963)

fill

f, \y
y

STATUTES AND RULES
28 U.S.C 2254(d)
O.C.G.A. 17-5-30 procedure to file a motion to suppress in Georgia
OTHERS : Material the petitioner believes essential to understand
the petition. All exhibits were also entered in the record state
habeas hearing and Eleventh circuit court of appeals, petitioner
listed exhibits as the events transpired in the case.
EXHIBIT A- first time officers ran the license plate number outside
Greens residents 12/15/05.while vehicle parked under Carport.
EXHIBIT D-the arrest warrant officers applied for the next day
after running license plate number. (12-16-05)

l c |

I

lilt

EXHIBIT B- impoundment sheet,officers towed Greens vehicle
from the residentiai-carport-for-investigation-,Green-was-not
home or arrested.No exigent circumstances or consent. No
search warrant at this time.No photographic line up at this
time.(12/17/2005)
EXHIBIT D petitioner now has a codefendant after the illegal
seizure ,codefendant I.d. in the vehicle .Still no photographic
line up created at this time.(12/21/2005)
EXHIBIT S - officers applied for a search warrant ELEVEN DAYS
AFTER THE VEHICLE SEIZED FROM GREENS RESIDENTS.
(12/26/2005/
EXHIBIT C- property sheet after the supposed search of the
vehicle .Photograph seized out of the vehicle, NOW THE
OFFICERS CREATE A PHOTO LINE UP AND SHOW VICTIMS
.(12/26/2005).
EXHIBIT F - now the officers start showing a line up (12/28/2005)
EXHIBIT G-petitioners trial attorney files for motion to
suppress evidence all evidence derivative of the seizure .
EXHIBIT H-trial attorney filed this because the only picture in
® # 0 9

lilt

discovery for three years was photograph with petitioner with
jewelryon:(05-15~2007)
EXHIBIT 3 - petitioners partial hearing on the motion to
suppress ,petitioners attorney filed initially. Note: petitioner
only sent cover page couldn't get more copies through the
facility. Petitioner sent the record to the eleventh circuit they
have copies of the partial motion to suppress hearing.Judge told
attorney we would get our hearing and the judge did not honor
any of trail attorney's motions so Green could recieve a hearing
on the warrantless seizure .(.Motion to suppress transcript
p.45-47.)
EXHIBIT I -1 , day of hearing on (04/03/08) state was ready
search warrant,photo line ups that was in the discovery. At the
hearing the detective came with a new photo line up that was
not in discovery and district attorney never had in his
possession.
EXHIBIT 1-2 attorney 's motion to reopen the suppression
hearing that the state judge said we would get.
EXHIBIT I -3 second motion lawyer filed for a suppression

*

>

t

t

111/

hearing.
EXHIBIT 1-4 trial lawyer was trying to create a defense witinhe
photo line up ,since judge was ignoring trial attorney's motion
to suppress evidence,motions.
EXHIBIT M- instead of giving petitioner a full and fair hearing,
the court gave petitioner's Codefendant a plea to go home that
day

if

he

testifies

in

Douglas

county

against

petitioner.(04/03/08).This is the same day after petitioner was
deprived of a full and fair hearing ,to prove Codefendants
information came out of the illegally seized vehicle.
EXHIBIT J -Had the same trial lawyer for both counties ,FIVE
YEARS AFTER PETITIONER WAS CONVICTED, trial attorney
decides to investigate the warrantless search and files another
motion

to

suppress

in

Cobb

County

.(06/19/2014).After

conviction Cobb county put their case on dead dockect.Reason
this all relevant because the same line up was given to Douglas
county officers to investigate the petitioner .petitioner was
deprived by state to put up a defense before trial and trial
attorney was incompetent in handling the fourth amendment
violation.
*

t' e f

II If

EXHIBIT 22 -Petitioner also sent two pages of trial transcript so the
conrt~can-see-t-h^^e€or-d-pQlic-e-officenseIectingjurors on a case he
investigated.TT p.335-336
i -g;f yj .

Cfti/M
$ five Jescli,photf

5’MT —
IT

u

hflb

I 7^ AfJScR< pfc

-Tizikl •H**voscAip/£

L"ue-

t t 0 *

/IM

of Sospecf
of 3us.peJ~

COa'd of Ce.fi.lriO'fcAAl

'pe.'trt ia^
-/-Ae

Sop^me.
O p A~tr\ e.

—--- U-t&rired

douix-t

S htfrf,----------------------

~TAe 'PrJri hoOefo } IBR1 AlO &ReeiJ ^ 'Rasper ffu llj/

TkAv/S

AAaA A 6UaiA

4~e> Tnet^eoJ)
C>( tln-o

Appeals

fioe

CeRlioRaai

J oJ^e /Ue/oA ft k)T)

S7e(/£A)fA

Key defied

issue,

Oy9/jUtQ/Q

C.\£LCu\{~ Coufii op

Q/O

MARcli

17/ ^091,

____________________ QpitOuokZ l^>e.fn( jQ ________ __
~TAg

File.ur.uUi

CJ/zc.ut{- CotJ^f of APPeal^_____

foCft&iueJ <Teiii'iOfiJe/l£ CouuicJribjU //j CftSe.__
- / 333£ - J, TAe Qpu^ibu /s UfO publish^
/kfD listed /fs Afflf &L 'The. Gnde/l of hk e~
E/^g<oR Ci'icui't Count of APPzftls de/Jj///ug
A^aRuo^ 1/sW As h^x^to APlitl <?7,7q£L
_________ _________ rfuAi s rlic. tiokb____________
~77)g

OpuoicnJ

^>P -/Ae

£leU^/U)tU CtAout’f

Count of APfleMs UJfrs auieiieA
Mff&ck ll; ^09-1 . A h/udy Mohoo ~ho
Count

T)eUieA
"Tne

Cod

CofiJSideRfttioP

'hhfrl~

LO

fC?Ril 37, 309-11

Tuatsdicjtiop nC -Hus Cnadl )s toUokA

Uvdefl

US.C,

L

NTHE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For casesfrom federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
_; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[f/3"is unpublished.
The opinion of the United States district court appears at Appendix ^
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ jpts unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is fsJO Cop/ CetziiPic.A'fe, P/iob/tb/e. crH/Se
Appendix
[ ] reported at
ftptlil l,
; or,
[ ] has been designated for publication but is not yet reported; or,
[Vf is unpublished.
The opinion of the CW A Uoo$fi $Q p&(L lot. Cood
appears at Appendix 5__ to the petition and is

Sbfkt ktib court

; or,
[ ] reported at --------------------------------------- --------[ ] has been designated for publication but is not yet reported; or,
[ i^Ts unpublished.

9c

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
t~7.
1
was
[ ] No petition for rehearing was timely filed in my case.
[ t^A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: Ap&f fi~7(. ?<3 3-f--------- , and a copy of the
order denying rehearing appears at Appendix —6
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
. (date) on
to and including----- :---in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including-----Application No.---- A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

3.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

t/.s Coi^sit 4#Ue/uD n/_
S^rtRcPes

SeixcjReS

(jj

LU/Witfuf
Couaf.

(LftAepJlti-

6/. Si

b ecuSeA suit
Aiut> +^e 12’!5^

X/u

Cosis /

Depmc

of

f

/}/( cz'uvuUl TkoSecoAo'/ue , -fh<L

°i

Zany \

io *“
Op £ou/USe(

# S si s f/4(Uee_

-f© hftUe.

©

babl e C^<PSe.

Sec.hoiC>JtAS

(SScJflMce

AM$

£o/i ^ts

Asjy s/tfit shfiM tJO'f'

AMeM<i^S2

?<ri?so/o of1 l&/ I'kzhf, UJitteuf D c/e process
n
s , U/U\i/o i(s Sums Jit hofj

r iU I Aui; u* <M ^ ^ Vef50

,t ^af^hoUof ^ 1^'

-fp£o/Ui:

2% (J.S'C 995^ is ftUAilftblt
6JAe^ /4 Pull-AuD .PAiA ^**<*>$
&S.Q

'5

/MeC&cUe- CcwajSs/

fit/mtdU
OM

\J wlfthoP ^KoubdeJ

OOrts

fiJO-f TkoO/ded.

Pot *?£RoEs

hfiluJ/U gP A Gofitti

SrfMe.

£RRoft- CdftS

,5V# fe Coufc^

2? Us e ??^Q)

2%. Use ?9S^C&)

0> C. G.ft 17-5-30
P

Co/Oc^/U^
/b* eu dfiA^i
gx/mt's/ea

/<°

STATEMENT OF THE CASE
■Mr:Green-was-coiwlcted-n3f-armed-robbery-and-re-ceive-d-a-life-wltho-at-/p^iW^^
sentence. His conviction was affirmed on direct appeal. Green filed a Habeas
Corpus petition in the superior court of Chattooga county in 2012 and raised
several constitutional violations dealing with the Fourth amendment and Sixth
amendment and Fourteen amendments.Greens state habeas Corpus petition
was denied June 2017,appx #5. The supreme court of Georgia denied Greens
application for a certificate of probable cause in April 2019. Mr.Green ,then
filed a habeas corpus action under 28 u.s.c.2254. Relief was denied appx #1
.The District court adopted the Magistrates decision and denied COA.appx#2.
The eleventh circuit denied relief without addressing the constitutional issues
appx # 6 .Green was convicted by illegally obtained evidence and a full and fair
hearing was not provided.

A partial license plate number was given to the Cobb county officers, this car
was thought to be seen by a witness who worked next to the establishment that
got robbed. Through this partial plate number the Cobb county officers
obtained Greens address. The officers drove by Greens residence and saw a
vehicle parked under the carport that matched the description of the vehicle
thought to have been seen by the witness.
This vehicle was registered to
Green. Exhibit A. Once the officers saw the vehicle, the officers drove back to
their county and applied for a ARREST WARRANT ONLY! Exhibit D. Green was
not home when the arrest warrant was served. The Cobb county police officers
seized the vehicle parked under the residential carport without a warrant to
search or seize.Cobb county applied for a search warrant UDays After the
Seizure of the vehicle from the residence. At this time a photograph of
petitioner was seized out of the vehicle and used in the creation of the photo
line up. Exhibit B and C. The officers never created a photo line up before the
arrest warrant to show to witnesses of the crime.
The photo line up was only created and shown to witnesses after the
photographs was illegally removed from the vehicle. Exhibit C and Exhibit #3
i

Sc

p.23 L4. After the illegal search and seizure Cobb county officer called a
detective in Douglas county and said you should look into this guy and gave
that county the same photo line up, which they used to show witnesses of an
subsequently was picked out of the
armed robbery and petitioner
photographic line up in Douglas county. An arrest warrant was obtained for a
Douglas county armed robbery. Petitioner was proceeding to go to trial in
Cobb county, petitioner had the same trial attorney for both counties.
Petitioners attorney filed several motions to suppress in Cobb county on the
warrantless seizure. NOTE : Exhibit # 3 ,is the Motion to suppress hearing
where Green only received a partial hearing. These transcripts was submitted
with the application for the 28usc 2254 . Once the clerk sends for the record it
should be included.
During the proceedings with this hearing in Cobb county there was issues with
the photographic line up Exhibit #3 p.39 to p.47 . Once it became time to
proceed with the hearing about the photograph being removed from the
vehicle the hearing was stopped and Green only received a partial hearing.
Exhibit #3p.47 . Exhibits G,I-l,I-2,I-3,I-4 and j. Cobb county left their case open
to make it seem as we was going to receive a hearing, But they sent petitioner
to Douglas county to go to trial there ,using the illegally seized photograph that
was used in the creation of the photo line up. Greens attorney did not file the
same motion to suppress the evidence out of the vehicle in Douglas county as
he did Cobb county with the attorney knowing petitioner did not get a full and
fair hearing. Exhibit G and ^3. £//,)6‘t)Green filed in state habeas corpus about
the fourth amendment violation and how petitioner was denied a hearing.
State habeas transcript p,16,17.petitioner also filed ineffective on trial counsel
for his failure in not challenging state's case to proper adversarial testing by
failing to file a motion to suppress on the warrantless seizure. Green submitted
a brief at the hearing SHT p.ll, Greens brief submitted^Ground 8 p.29-39 ,the
state answered but did not address the error as petitioner presented it.
State habeas final order p.13 appx #5, Even though the state answered error
8 that was submitted by petitioner for trial counsels failure to challenge the
warrantless seizure.The Magistrate claims this error was unexhausted appx#4

d.

p.8 error 3(A). States attorney just did not elaborate on the substance of the
error that petitioner presented. SHT p.16,17
Green ,also submitted error in state habeas on appellate counsel being
ineffective for not investigating the warrantless seizure and not raising
ineffective on trial counsel for not filing a motion to suppress on the seizure
before trial which deprived petitioner an opportunity to have a hearing and to
put up a defense on the warrantless seizure of evidence that was put before
the jurors. State habeas final order p.16,17 appx #5 error 10. This error was
submitted in the same brief (state habeas brief) p.48 error 10 .The states
attorney once again did not go into details about the error petitioner
presented.
This error ground 10 once again the federal court said it is unexhausted
,Magistrates final order appx #4 p.4 and p.8 4(a),4(d). So,the question is if the
states attorney answered 2 errors on APPEAL COUNSEL DEALING WITH THE
FOURTH AMENDMENT VIOLATION APPX #5 P.13 error 9 and P.16-17 error 10.
Now see appx #4 P.9,federal court addressed one error on appeal counsel
dealing with the Fourth amendment violation ,which was 4(b)and claimed
4(a),4(d) is not exhausted.
During Greens jury selection process ,the lead detective in officers uniform sat
with the prosecutor and every answer the prospective juror gave during voir
dire the officer wrote it down in front of them. The detective told the new ADA
of that county who to select for the officers case .The prosecutor never asked
the court for permission to allow a witness or why he would need a witness to
help strike the jury. The court never inquired if any of the prospective jurors
are related or acquainted with the officer. This happened before the rule of
sequestration was invoked.The state habeas court did not address the
constitutional issues Green presented. The state habeas denied this error based
O^Vthe rule of sequestration the rule was invoked the day after jurors was
selected. This rule was formulated for the orderly presentation of evidence
O.C.G.A.24-6-615 ,not for a police officer who investigated the case to select
jurors he wants and testifies in the case also. Appx #5 p.9 see TT p335-336 . EkKi

1,

REASONS FOR GRANTING THE PETITION
•FOR-ERROR-#l~These-circumstances-are-unique-aiicHt-is-a-conflictramong
]tJCr

circuits regarding, A police officer who investigates a case be allowed to be
involved in the jury selection process and testify.The supreme court can
distinguish the difference between the officers presence for orderly
presentation of evidence and being involved with the jury selection process.

Before the beginning of Greens jury trial, During the jury selection process the
police officer who was the lead investigator of the case wore his officers
uniform and sat with the district attorney and told him who to select for his
case and he also testified. Exhibit 22-(transcript from jury trial p.335-336).
Green raised this error in state court and federal court and raised violations of
the sixth amendment to a impartial jury and a fair trial, as well as the
fourteenth amendment to due process of the law and equal protection of law.
The state habeas final order p.9 and 10 did not address any of the
constitutional violations petitioner put forth appx#5 .The federal court did not
address any of the federal violations Green put forth appx#4 p.l2andl3.
Petitioner also raised in state habeas hearing,trial counsels ineffectiveness for
not objecting to the Jury selection process.
Also,appellate counsel for not raising error on trial counsel during direct
appeal. State habeas final order appx#5 p.9-ll.Before jury selection began the
district attorney did not ask the trial judge for permission, nor did he explain
why the POLICE OFFICER would be needed to select jurors for the case he
investigated and will testify in.
Before jury selection, the prospective jurors was never questioned if anyone is
a blood relative of Captain Davidson (police officer) or if anyone was even
acquainted with him.TT p.36. During the voir dire personal questions was
being asked TTp.38. The police officer was writing all the answers prospective
jurors responded to down on a pad in front of them.TT p.335 L23-25. tz.xki~l)i^ 2-2-

8.

The officer was not the officer who applied for the arrest warrant TT p.330L10
he was only listed as a witness on the indictment. THIS OFFICER WAS NOT AN
OFFICER OF THE COURT. The jury was selected before the rule of sequestration
was invoked.TTp.52-53.now see TT p.76. In Greens presentation of this error he
never addressed or argued any matter of the rule of sequestration. State
habeas trans p.13-15.
Green cited cases such as PILCHAK V. CAMPER,741 F.SUPP 782,8thCir. This case
states: The sixth amendment to the constitution of the united states Mandates a
fair and impartial jury .Accordingly,the participation of an interested official in
the jury selection process is fundamentally unfair and thus a violation of due
process. This case does not differentiate between by^standing jurors or
prospective jurors.
In
case
MARTINEZ
V.STATE,0808019298WCC,DELAWARE SUPREME
COURT(4-29-2010) States in error lO/THE SUPREME COURT HAS NOTED THAT
A VIOLATION OF ACTUAL OR INHERENT PREJUDICE IS FOUND ONLY WHEN
POLICE ARE PERMITTED TO ASSIST IN THE JURY SELECTION PROCESS". The
difference between this case and Green's is Green has evidence in the record
TT P.335-336. In case HENSON V.WYRICK,634 F.2d 1080 8th Cir states "WHEN
THE OFFICER SELECTS A JURY BASED ON SUBJECTIVE RATHER THAN AN
OBJECTIVE CRITERIA THE POTENTIAL FOR PREJUDICE IS GREAT.TT P.336
L8-16.
In case COURY V.LIVESAY,868 F.2d 852 6thCir,in this case it does not
differentiate between by -standing jurors or prospective jurors. This case was
not reversed because the officer involved in selection of the jurors was not
involved in the investigation. Petitioners case is opposite TTp.336L14-25.
The police officer who assisted in selection of the jury gave prejudicial
testimony at trial,he vouched for the prosecutions method of preparing
witnesses before trial.He gave expert testimony on M.O. and explained why
petitioner is a suspect TTp.309-335 . The trial judge prevented trial counsel
from asking prospective jurors would they be more prone to believe testimony
of a officer over the ordinary witnesses TTp.42. The federal court did not

review petitioners error on trial courts limitation of voir dire appx #5 p.ll. The
state did not give any jury instructions for guidance for credibility of an
officers testimony. See case UNITED STATES V. ANAGNOS 853 F.2d 1 (1st
Green cited to the states habeas court case IRVIN V. DOWD 366
Cir)1988.
U.S.717,6L.ed2d751. States" A problem may be compounded when a possibility
of bias arises,parties which could possibly influence a juror .It is important for
the court to retain the doctrine of implied bias to preserve sixth amendment
rights. The right to a trial by an impartial jury lies at the very heart of due
process. There was no way to determine if any juror was influenced or
There is a reasonable
intimidated by the officer selecting them for his case,
possibility prospective jurors were likely to draw adverse inference from
Captain Davidson in uniform selecting jurors inference quilt of petitioner in
their mind central to right to a fair trial guaranteed by the sixth amendment
and fourteenth amendment is the principal that one accused of a crime is
entitled to have his guilt or innocence determined solely on the basis of
evidence introduced at trial,certain practices pose a threat to the fact finding
process.ESTELLE V. WILLIAMS, 425 U.S. 501,48L.ed2dl26(1976).
The system should guarantee" not only freedom from any bias against the
accused, but also from any prejudice against his prosecution. Between him and
the state the scales of justice are to be evenly held.HAYES V. MISSOURI, 120
U.S.68,30 L.ED758. The state courts habeas final order appx #5p.9
States'TETITIONER CITED NO RULE OF LAW"this is a good reason why this
court should grant certiorari. Petitioner cited cases from other appeal courts.
T^e

Sfd4e.s

4Ho&M&'Y /Ksoj

AJ0 CftSe.,

A writ of certiorari should be granted to give courts guidance on whether or
not a police officer can be involved in selecting a jury and testifying in a case
he investigated.

to.

2. RESTRICTION ON HABEAS CORPUS REVIEW OF FOURTH AMENDMENT
CLAIMS HELD NOT APPLICABLE TO SIXTH AMENDMENT CLAIM THAT
ASSISTANCE OF COUNSEL WAS INEFFECTIVE BECAUSE OF INCOMPETENT
REPRESENTATION

ON

FOURTH

AMENDMENT

ISSUES

KIMMELMAN

V.MORRISON 477 U.S.365,91Led2d305.
Green raised in brief submitted at state habeas hearing to support his
application, with exhibits of trial attorney's Motion to suppress evidence from
the warrantless search and seizure and evidence of the Partial hearing .SHT
P.11-12,P.16L 16-25,P.17-19 ERROR #8 PETITIONERS STATE HABEAS BRIEF
P.29-39. STATES FINAL ORDER APPX #5 P.13 ERROR #8.
According to Supreme court case BALDWIN V.REESE,541 U.S.27,29(2004)
STATES"to determine whether a petitioner fairly presented a claim before the
state courts l)relied on relevant federal cases applying constitutional analysis;
2)relied on state cases applying federal constitutional analysis to a similar
factual situation; 3) asserted the claim in terms so particular as to call to mind
specific constitutional right 4)alleged a pattern of facts that is well within the
mainstream of federal constitutional litigation. Green submitted error #8 in
his state brief ,which states petitioners sixth amendment right to effective
assistance of counsel was violated, through pre-trial procedures and criminal
trial. The facts and argument Green presented in this error was how trial
attorney was incompetent in representation on fourth amendment issues.Case
KIMMEL V.MORRISON, 477 U.S. 365(1986) is based on,which Green cited in his
argument in his state habeas brief p.35 error #8.Petitioner cited STRICKLAND
V.WASHINGTON, 466 U.S.668(1984) on ineffectiveness (brief submitted at state
habeas p.30 error #8 ) on counsels ineffectiveness. UNITED STATES V.LAMAS
,930F.2dl099 5thCir(1991) Greens brief p.32 error #8 based on the exclusionary
rule.Green cited WONG SUN V.UNITED STATES,371 U.S.471,83S.CT407(1963)
p.34 in brief submitted to address fruit of the poisonous tree. Green cited
HUYNH V. KING,95 F3d 105,llthCir .(1996) p.36 error 8 which is similar facts to
petitioners. Green cited also, in error #8 p.37 WARDEN V.HAYDEN 387
U.S.294,87S.ctl642 and MAPP V. OHIO, 367U.S.643,6L.ed2d 1081 p.39 Error #8.

II.

The states attorney answered ground #8 in states final order p.l3.The states
attorney did not go into what ground 8 was based on ,which is trial counsels
failure to file a motion to suppress on the warrantless search and seizure.
Green filed a federal habeas 2254 stating how trial counsel was ineffective for
his failure to file a motion to suppress on the warrantless seizure .
The Magistrate claims this error is unexhausted .Magistrates final order p.4
error 3(a), p.8 the magistrate claims 3(a) was not presented in state habeas
hearing appx#4. But,yet the state habeas court answered ground 8 p.13 appx
#5.The district court adopted the magistrates findings which is in-correct. A
state prisoner is required to present the state courts with the same claim he
urges upon the federal courts PICARED V. CONNOR,404U.S.AT 276,92S.ct at
512.petitioner presented same facts and substance of the claim. In case
NEELLEY V. NAGLE,138F.3d917 llthCir(1998). States: When a claim was
adjudicated on the merits in state court proceedings the claim must be
evaluated under 2254(d) Ground 8 was submitted at state habeas hearing SHT
p.11-12.
Green had the same trial attorney for both Cobb and Douglas county where
trial took place. Trial lawyer filed a motion to suppress evidence from the
warrantless seizure in Cobb county where the officers seized Greens vehicle
from his residence when Green was not home.EXHIBITS G AND H. At this
particular hearing there was a undissolved dispute on the evidence Exhibit #3
p.39-43,p.45-47. Even though the states attorney was ready for the suppression
hearing Exhibit G and i-l(the search warrant applied for 11 days after the
seizure). The state court decided not to give petitioner a hearing on evidence
seized out of petitioners vehicle. Exhibit #3 p.47 L 20-22. The court in turn
DaUj/aJ y against
decided to give Codefendant a plea!&
petitioner. Exhibit M. Before trial in Douglas county trial lawyer filed several
motions in Cobb for the suppression hearing where the dispute was never
resolved. Exhibit #3 p.45, Exhibits i2,I 3. Greens was hindered from putting on
a defense from the warrantless search and seizure.
Cobb county officers seized Greens vehicle from his residence without a

r I 3*

warrant.The officers only had a arrest warrant .The officers saw the vehicle
parked at the residence before applying for arrest warrant.The officers never
created a photo line up to show witnesses until they seized Greens vehicle
removed photographs then created the line up. Exhibits B,S,C,F. Then the
officer called an officer in Douglas county and said you should investigate
Green and received the photo line up with the illegally seized photograph and
Green got I'ded in Douglas county. Trial attorney did not file same motion in
Douglass county like he did in Cobb.Exhibit G on the warrantless seizure. All
evidence used was the fruit of the poisonous tree ,came after illegal seizure.
Greens trial attorney only investigated the illegal seizure and laws pertaining
to the seizure after Green was convicted EXHIBIT J ,GREENS TRIAL ATTORNEY
FILED ANOTHER MOTION TO SUPPRESS FIVE YEARS AFTER GREEN WAS
CONVICTED WITH THE EVIDENCE.
Prejudice: State court would have granted Greens motion to suppress based on
supreme court case COLLINS V VIRGINIA, 138S.ct 1663,201 l.ed2d 920(2018)
curtilage is considered part of the home. Officers had no lawful access to the
vehicle. Green was not home ,no exigent circumstances or consent.No probable
cause evidence was in the vehicle the crime was supposed to happen a week
prior .Exhibit D. No photo line up was developed before arrest warrant or
illegal seizure. The photo line up had a reasonable probability to be excluded
and testimony regarding out of court identification according to case U.S
V.CARTER, 2009U.S.DIST LEXIS9607 ,and MAPP V. OHIO, 367 U.S.643, illegally
seized evidence not to be used in any trial. Greens fourteenth amendment to
due process was violated on a right to be heard on a motion to suppress
evidence and an opportunity to challenge the states case to proper adversarial
testing.
There is a reasonable probability that the verdict would have been different
there was ample evidence the prosecutor went over witness testimony several
times before trail. TT p. 197-198,268-269 , There was NO FINGER PRINT
EVIDENCE TTp.316-318. Th descriptions was inconsistent TTp.201,TTp.272-274.
Green was not arrested in Douglas count until three years this crime supposed

J3

to taken place. Being trial attorney did not have an opportunity to know where
the photo came from and which was the original line up and did not file a
motion to suppress evidence on the warrantless seizure before trial ,he was
incompetent and unreasonable prevailing professional norms. TTp.72,
TTp.516-527. There would be nothing strategic about investigating the illegal
search after your client has been convicted. EXHIBIT J .Green was entitled to be
assisted by an attorney to insure the trial is fair. STRICKLAND V.
WASHINGTON, 466U.S.668,80 L.ed2d 674. When the state fails to give at least
colorable application of the correct Fourth amendment constitutional standard
there has been NO OPPORTUNITY FOR A FULL AND FAIR CONSIDERATION.
GAMBLE V. OKLAHOMA,583 f.2dll61 Exhibit #3 p.45-47
There was an unconscionable breakdown in the procedures provided, the state
unconstitutionally deprives the petitioner of his liberty.
The district judge in his final order dated October 27,2020 p.4 where he states
"just one example, where it says petitioner asserts trial counsel" Ground # 8 in
brief submitted at state habeas hearing states trial counsel p.29 to39. The
argument in ground 8 is based off trial counsel.The states attorney in his final
order acknowledges the error is based off of trial counsel .Appx #5 p.13 ground
8 it clearly states trial counsel.THE DISTRICT COURT ERRED IN NOT
EVALUATING ERROR ON TRIAL COUNSEL AND CLAIMING IT IS NOT
EXHAUSTED.

ERROR'S:—Green-raisetHn-^ound-lO-in-his-br-ief-submitted-at-thestatehabeas
Petitioner was denied effective assistance of Appellate
hearing SHT p.11,12.
counsel in violation of the sixth amendment and denied the right to due
process under the fourteenth amendment.
Appellate counsel was constitutionally ineffective by his failure to investigate
trial counsels pre-trial errors and for not raising the fact that petitioner never
received his constitutional right to have a full and fair hearing. Green testified
as evidence at the state habeas hearing the substance of this error to fairly give
the state courts an opportunity to address this error. SHT p.25 L21-25, p.26-28.
In the states habeas final order p.16 (at the bottom of the page) and p.17 the
states attorney answered ground 10,meaning he replied to the error. Appx # 5.
Green submitted in ground 10 all the facts based on constitutional errors in
accordance to the ineffective assistance claim. Green cited STRICKLAND V.
WASHINGTON, 466 U.S.668, KIMMELMAN V. MORRISON, 477U.S.365,106S.ct
2574(1986) . Green cited HOUSE V. BALKCOM,725 F.2d 608,llthCir based on
inadequate investigation.
The Magistrate judge of the federal court claims this error is not exhausted
appx #4,p.4 and on p.8 the magistrate claims 4(a),4(d) is not exhausted and
failed to review, The district judge adopted the magistrates findings along
YET ,the state habeas final order addressed error 10
with the llthCircuit.
just not in federal constitutional terms as petitioner presented it. See ground 10
brief submitted SHTp.11,12 in brief p.48-58 Ground 10 submitted at the state
habeas hearing.
In case OGLE V.JOHNSON,488f.3d 1364(2007) states: Where the petitioner calls
the state courts attention to ineffective assistance problems and the court
examines the crucial aspect of counsel’s representation, the petitioner may
relitigate the constitutional claim in federal court. STATES HABEAS FINAL
ORDER P.16-17 GROUND 10 Appx #5.
PICARD V.CONNER,404 U.S.270,277-78,301.ed2d 438(1971) States: To satisfy the
■{ "(■

. iS

exhaustion requirement, the petitioner must have fairly presented the
substance of his federal claim. A claim is fairly presented if the petitioner has
described the operative facts and legal theory upon which the claim is’based.In
state habeas and federal court petitioner raised and presented evidence of how
appellate counsel was ineffective for not investigating petitioners trial counsels
pre-trial errors for not filing a motion to suppress on the warrantless seizure
from petitioners home before trial in Douglas county and for not presenting
evidence Green was denied a full and fair hearing violation of the fourteenth
amendment and a right to a fundamentally fair trial to be able to put up a
defense on the warrantless search and seizure.
Green informed appellate counsel about the warrantless search from Greens
residence. Green informed the counsel that all the evidence used in trial was
obtained after the illegal seizure.Petitioner informed appellate counsel that the
Cobb county officer called Douglas county after the illegal seizure and gave
them the photo line up to use to investigate robberies in that county.
Green was not home during this warrantless seizure, no exigent circumstances
or consent. The states attorney acknowledged that Green was not home (states
final order p.8 Appx #5) . To show how appellate counsel did not investigate,
States habeas final order appx #5 p.15 appeal counsel states : petitioner was
there ,appellate counsel thought taking of the vehicle was incident to arrest
and it was not Green was not home.SHT p.22 L21-25, p.25 L21-25 ,p.26-28, p.35
Appellate counsel was under the impression trial counsel never filed a motion
to suppress the evidence from the warrantless search and seizure .SHT p.37
Ll-15 .Appellate counsel was wrong trial counsel filed Exhibit G,i-2, i-3. If the
appellate counsel would have investigated he would have found Green was not
home during the illegal seizure and that trial attorney did file a motion to
suppress and the state declined to hear or rule on the motion denying
petitioner an opportunity to put up a defense on the warrantless seizure.
In case HORTON V.CALIFORNIA, 496 U.S. 128,136-137 States: an officer must
have a lawful right of access to any contraband he discovers in Plainview in

•t

./£>

order to seize it with out a warrant.
■GREENS-case-K-si-miiur-to-UNffED-ST-AT-ES-VT-GART-ER,2009-U.S.DIST_LEXIS.
9607(2009). It was the creation of the photo line up through the exploitation of
that illegality. If appellate counsel would have raised ineffective on trial
counsel during Direct appeal for his failure for not filing a motion to suppress
on the warrantless seizure, the court would have found the suppression
motion had merit.Why would the trial lawyer file a motion to suppress in Cobb
county and not Douglas county based on same evidence ? Exhibit G, i-2,i-3 and

JPrejudice: Once a lawyer files a motion to suppress the burden is on the state to
prove the evidence is legal. Exhibit G. If appellate counsel would have
investigated he would have realized trial attorney did file a motion to suppress
the evidence from the warrantless seizure and the state interference by
officials denied trial attorney an opportunity to put up a defence. Exhibit i-2,
i-3, i-4 and exhibit #3,TT p.525-526. The only evidence put before the jury was
the photo line up, which was created only after the photograph was seized out
of the vehicle.
The direct appeal court would have found trial counsel ineffective, he was so
unreasonable after trial he renewed his request for a suppression motion after
he investigated .petitioner was convicted already .Exhibit J
Appellate counsel says he didn't raise this error because witnesses iDe'd
petitioner on the stand which is unreasonable if the court would have given a
hearing the photo line up would have been suppressed and testimony
concerning . The witnesses ID's was not competent each witness gave a
different description of the perpetrator TT p.201-203. TT p.272-275. The district
attorney went over testimony several times before trial on identification TT
p.267-269 ,TT p.197-198.
Appellate counsel explained in states habeas hearing he didn't raise the fourth
amendment violation based on inevitable discovery which is unreasonable
under STRICKLAND.SHT P.39 L24-25 P.40 Ll-5

~ V.'

.17

Inevitable discovery would not stand in petitioners circumstances.
tJ7S:V"SATTERFlEfcD7743^:T2-d-82-:7-44tbGir(-1984-)—T-he-poliGe-officers-at-tbe-time.
of the seizure did not possess legal means of discovering the evidence ,a
warrant,nor were they actively pursuing such means they had not initiated the
warrant process .If appeal lawyer would have investigated he would have
learned the officers applied for a search warrant eleven days after the illegal
seizure Exhibits B and S.
Independent source would not stand ,because the officers at no point
relinquished control of the vehicle and its contents there was no interruption
of the illegal seizure. MCGARRY INC V.ROSE,344 F.2d 416 lstCir(1965).
In case NIX V. WILLIAMS, 467 U.S.431,81Led2d 377(1984) The court announced
the inevitable discovery and the independent source is not to be speculated
on.Its up to the prosecution to prove .If the district court would have realized
petitioner did exhaust error 4(a)4(d) appx #4 magistrates findings .There is a
reasonable possibility the District court would have granted the writ.states
final order appx #5 p.16-17 error 10 .
UNITED STATES V.CRONIC,466U.S.648 . Greens trial was fundamentally unfair
,when unable to put up a defense on the warrantless seizure appeal counsel
was unreasonable for not enumerating as error trial lawyers incompetence
and the states interference with petitioner receiving a full and fair hearing on
the fourth amendment claim.

.1*

4:
UNUSUAL CIRCUMSTANCES WITH THE FOURTH AMENDMENT AND WHEN A
FULL AND FAIR HEARING IS NOT PROVIDED BY THE STATE.
Is the federal habeas 28 U.S.C. 2254 a legal avenue for a state prisoner to use
when there is a fourth amendment violation and the state deprived the
prisoner a full and fair hearing ?
In petitioners case the state used inevitable discovery independent source and
the attenuation doctrine being the case they admitted to a fourth amendment
violation. The petitioner has been claiming in state court and federal court
that he was deprived a full and fair hearing on the warrantless seizure of
evidence from petitioners home.
The state court or federal court never addressed if petitioner was deprived of a
hearing on the warrantless search and seizure of evidence.
Most importantly ,the usual defense used in a case where a state prisoner
claims a fourth amendment violation is the courts determine if the prisoner
was granted a hearing on the violation and determine if the supreme court
precedent applies which is STONE V. POWELL, 428 U.S. 465 as a defense. Which
neither state or federal court applied in Greens case. Should Greens case be
relevant in determining when a federal court should inquire if the state court
deprived a petitioner his fourteenth amendment on a right to be heard ?
Does a states procedural default hinder a state prisoner from his case being
evaluated under 28 U.S.C. 2254 ,when the petitioner makes a claim that
illegally seized evidence was used for a conviction and a full and fair hearing
was not provided on the fourth amendment violation ?
28 U.S.C.S. 2254 provides that a district court shall entertain an application for
a writ of habeas corpus in behalf of a person in custody pursuant to the
judgement of a state court only on the ground that he is in custody in violation
of the constitution or laws of the united states. The substance of a federal
corpus claim must first be presented to the state courts to satisfy the
fv

.19

exhaustion of remedies requirements of 28 U.S.C.S.2254(b).
•petitioner-exhausted—staie—remedies—tO-the_Suoreme court of Georgia by
enumerating as error that petitioner was convicted by illegally seized evidence
and a full and fair hearing was not provided. The fundamental premise
remains that" it is the substance of the claim that the courts looks in to when
analyzing whether a federal claim has been voiced. Petitioner presented the
state court with "an opportunity to apply controlling legal principles to the
facts bearing on his claim. In case SNOWDEN V. SINGLETARY,135 F.3d 732,735
llthCir(1998) it states " to exhaust state remedies fully the petitioner must
make the state aware that the claims asserted present federal constitutional
issues".
Petitioner cited facts and federal cases for his fourth amendment violation
such cases as STONE V.POWELL,428 U.S.465 and TOWNSEND V. SAIN,372
U.S.293 and COLLINS V. VIRGINIA, 138 S.ct 1663(2018). Petitioner alleged to the
state and federal court the facts of how petitioners opportunity for a full and
fair litigation of his fourth amendment claim was impaired by the state ,which
in turn created the procedural default that should be imputed to the state.
The courts erred by not addressing petitioners opportunity to be heard on his
fourth amendment violation before trial, Which made petitioners trial
fundamentally unfair by hindering his opportunity to put up a defense on the
illegally seized evidence " fruit of the poisonous tree" Usually, a federal habeas
corpus 28 U .S.C.S.2254 is the avenue provided for a person convicted of
illegally obtained evidence where no opportunity was available for a full and
fair litigation of a fourth amendment claim in state court. SHT p.15-19, p.21-28.
An armed robbery took place in Cobb county ,a witness who was next door to
the establishment that got robbed gave the investigator a partial plate number
of the supposed get away vehicle. A week later through this partial license
plate number, the Cobb county police officers obtained Greens home address.
The Cobb county officers drove by Greens residence a week after the alleged
crime supposedly took place and saw a vehicle thought to match the vehicle
thought leaving the scene of the crime parked under the carport of the

.90

residence it serves. The Cobb county officers drove to Cobb county and applied
for an ARREST WARRANT ONLY! this was the day after seeing the vehicle at the
residence. When serving the Arrest Warrant Green was not honuvthe officersdecided to seize the vehicle that was registered to Green and parked under the
Carport. Exhibit b there was no consent or exigent circumstances.
After breaking into the vehicle to seize it from petitioners home the officers
decided after eleven days of the seizure to apply for a search warrant.Exhibit S
Once the officers so called search the vehicle they removed photographs and
used them to create a photo line up. Exhibit C . The officers never created a
photo fine up to show witnesses of the crime before applying for the arrest
warrant or the seizure of the vehicle. After the officers created the photo fine
up with the illegally seized photographs then they showed the fine up to
witnesses of a crime.Petitioner now received a codefendant because his
identification was in the vehicle.
The Cobb county police officer after he did the illegal search and seizure called
a detective in Douglas county and explained they should investigate petitioner
and gave them the same photo line up created after the illegal search. Green
was Id'ed in Douglas county after officers canvassed unsolved robberies.
Petitioner went to trial in Douglas county after petitioner was denied a full and
fair hearing on the fourth amendment violation in Cobb county on the illegally
seized photograph,the only physical evidence presented at trial and used to
convict petitioner in Douglas county.
Cobb county officers claim they seized the vehicle because of plainview,which
would be inapplicable to the warrantless seizure in Greens case. Petitioner
cited in his brief to the state and federal courts supreme court case COLLINS V.
VIRGINIA, 138 S.CT 1663 (2018) it states "When a law enforcement officer
physically intrudes on the curtilage to gather evidence, a search within the
meaning of the fourth amendment has occurred. Such conduct thus is
presumptively unreasonable absent a warrant. The officers never had lawful
right of access to seize the vehicle, parked within a home or its curtilage
because it does not justify an intrusion on a person's seperate and substantial
(f

t

I

Fourth amendment interest in his home and curtilage . Green had an
expectation of privacy and possessory interest in the curtilage of his home and
contents of the vehicle. There was no exigent circumstances or consent given
for the warrantless seizure.
STONE V.POWELL,428 U.S.465 (1976) Requires that a state court take
cognizance of the constitutional claim and render a decision in light of. Exhibit
G and exhibit #3. The motion set forth demonstrated Green had standing to
challenge the search. An "unanticipated and unforeseeable" Procedural rule
deprived Green of a fair opportunity to present his claim to the appellate court.
Green was precluded from using the corrective mechanism provided by the
state for a person aggrieved of an illegal search and seizure, Which is a
violation of due process.THERE WAS A SHAM PROCEEDINGS EXHIBIT # 3
P.45-47.
The original jurisdiction Cobb county who did the illegal search and passed the
same evidence to Douglas county, told Greens trial attorney he would get a
hearing and be able to present facts Exhibit #3 p.40-47 the judge p.40
L14-16,p.43 L20-22,p.45 L13-25 ,p.46 L20-25( p.47 L20-22 ,for exhibit G).
trial attorney filed motion exhibit h ,at the hearing the detective
now has a photo line up that was never in discovery and the D.A. never had by
this time petitioners attorney had discovery for three years .No evidence of a
parole picture was ever in discovery. The state court would not allow Green an
opportunity to prove the photo came from the vehicle. Fruit of the poisonous
tree. That same day Green was denied a hearing on the warrantless seizure,
the judge offered codefendant a plea to go home that day if he testifies in
Douglas county. Exhibit M. Codefendants information came out of the vehicle
after the illegal search .exhibit E and C fruit of the poisonous tree .The next day
after Green was deprived of a hearing he was sent to Douglas county.
Green had the same trial attorney for both counties ,Trial lawyer didn't file
same motions in Douglas county like he did in Cobb county exhibit G .this is
when trial lawyer was incompetent when the lawyer knew the court refused to
hear the case Exhibits ,G ,i-2 ,i-3 , i-4. At the particular hearing before trial in

P2

Douglas county on the line up being suggestive ,the trial attorney nor the
Douglas county D.A. subpoena the detective who did the illegal search and took
the photograph out of the vehicle, so it could be determihed~where the photo
came from. TTp.61 L-15 the only testimony from the Douglas county officers
was we got the line up from Cobb county.
During the course of trial the attorney went through issues again with the line
up TT p.516-528 and by precluding petitioner from a full and fair hearing it
hindered his opportunity to put up a defense TTp.526-528 Cobb county left
their case open as petitioner was still going to get a hearing .exhibit G and h.
Both prosecutors knew there was an issue with the line up ,with the picture
used out of the vehicle .TT p.l34-137.before trial trial lawyer brought to courts
attention TTp.l L10-13 he is speaking on Cobb counties motions exhibit G
photographs seized out of the vehicle. Even the judge was aware there was a
problem with the line up TT p.75 L18-22.
Petitioner was deprived of the Sixth amendment fundamental right to a fair
trial and fourteenth amendment to due process on a right to be heard and a
full opportunity to put up a defense on the illegally seized photograph. TT
p.526 L2-16. The lawyer was deprived from addressing the issues because
motions was still pending in Cobb county and the district attorneys have been
working together in order to obtain a conviction TTp.134-137 Exhibit # i-4.
Petitioner was also deprived of an interlocutory appeal if the court ruled the
photograph used in the line up was admissible .Green received a Sham hearing
and trial attorney was ineffective for not raising a motion on the warrantless
seizure. Even after thorough investigation Greens trial attorney filed another
motion to suppress FIVE YEARS AFTER GREEN GOT CONVICTED WITH THE
ILLEGALLY SEIZED EVIDENCE. EXHIBIT J .APPELLATE COUNSEL WAS
INEFFECTIVE FOR NOT RAISING INEFFECTIVE ON TRIAL ATTORNEY DEALING
WITH THE FOURTH AMENDMENT VIOLATION ON DIRECT APPEAL.
In case CRANE V. KENTUCKY, 476 U.S.683, states "Due process clause of the
fourteenth amendment of the U.S. constitution guarantees criminal defendants
a meaningful opportunity to present a complete defense. An essential

• 23

component of procedural fairness is an opportunity to be heard ,with out the
opportunity it deprives a defendant of the basic right to have the prosecutors
case encounter and survive the crucible of meaningfuradversariahtesting:-----The state courts and the federal court never addressed Greens opportunity for
a full and fair hearing. SHT p.16-19. The federal court erred by addressing
procedural default on Greens fourth amendment claim and not evaluating
Greens being denied a hearing and addressing the Unconscionable breakdown
in the system. Green requested for an evidentiary hearing under 28 U.S.C. 2254(£^
and showed he was qualified and requested an attorney under U.S.C.3006A.
Green showed cause for procedural default and showed how external
impediment blocked Green from asserting his federal claim on direct appeal.
MURRAY V. CARRIER, 477 U.S.478Q986) ,SEE ALSO EDWARDS V. CARPENTER,
529 U.S.446(2000).

EXHIBITS G, #3, i-2, i-3„ i-4 and exhibit j.

Prejudice: petitioner was convicted without able to put up a proper defense
.These errors worked to Greens actual and substantial disadvantage infecting
the entire trial with error of constitutional dimensions. U.S.V.FRADY,456
U.S.152.
28 U.S.C.2254(d)(1)- resulted in a decision that was contrary to,or involved an
unreasonable application of, clearly established federal law ,as determined by
the supreme court of the united states. In the states final order the states
attorney unreasonably applied the Supreme court case UTAH V.STRIEFF,136
S.CT 2056,2061(2016) to the facts of Greens fourth amendment violation .States
habeas final order appx #5 p.16 .There was no attenuation ,the officers illegally
seized the vehicle and its contents used information and photograph to create
the photo line up. After the illegal search the Cobb county officers called
Douglas county officer and told them to investigate petitioner.The Cobb county
officers gave them the photo line up they created with the illegal seized photo.
The Douglas county officers started canvassing armed robberies until
petitioner was id'ed.
Green was not under investigation in Douglas county until after the illegal
rl

seizure " fruit of the poisonous tree" Greens fourth .sixth and fourteenth
amendment was violated in order to obtain a conviction. Douglas county was
aware of the illegal seizure.TT p.504-508,11 p.330~Ef7'7TT-pt35G-L-3—T-T-p.358
L10-14 ,TT p.133. In case UTAH V. STRIEFF,136 S.CT 2056,2061(2016) "The
probable cause flows directly from the unlawful seizure and does not break
the causal connection between the Fourth amendment violation and the search
,it is not therefore an intervening circumstance.
Next factor under UTAH V. STRIEFF .weighs in suppression of the photo line up
and testimony concerning the line up and codefendants testimony is the
purposeful and flagrant misconduct. The officer knew that there was no
consent ,no exigent circumstances and Green was not home .there was no
probable cause that evidence of a crime was in the vehicle, the crime happened
a week prior supposedly. They never showed a photo line up before applying
for an arrest warrant to determine if petitioner was the culprit. The officers
still engaged in the seizure knowing it was unconstitutional. This misconduct
was investigatory in design and purpose and executed in the hope that
something might turn up .Exhibit B .
In states final order appx #5 p.16 the state attorney explains how petitioner
case fits the attenuation doctrine ,he never cites anything from the record its
all speculation. How can the District court without a hearing to determine the
historical facts to determine if UTAH V. STRIEFF, 136S.CT 2056(2016) applies to
Greens fourth amendment violation.
Accordingly,under 28 U. S.C. 2254(d)(1) petitioner has proved the state use of a
decision that was contrary to,and involved an unreasonable application of,
clearly established federal law as determined by the Supreme of the united
states . THE DECISION WAS BASED ON UNREASONABLE DETERMINATION OF
✓fee iJ-f'k

,

THE FACTS. Due process under the Fourth amendment states procedural due
process, based on principles of "fundamental fairness" addresses which legal
procedures are required to be followed in state proceedings, relevant issues,
include notice, opportunity for a hearing , confrontation and cross
examination, basis for a decision and availability of counsel. Green was

arrested in Douglas county in 2008 this crime supposedly happened in 2005 if
the state had to use an in court identification only,, after three years there is a
reasonable possihillf^hFTratcome-weuld-ha-veJjeen different, .exhibit W .state
was aware of all the facts exhausted state remedies SHT P.16-27.
Petitioner should have been entitled to a federal hearing under 28
U.S.C.2254(e) Greens case fits the criteria under TOWNSEND V. SAIN 372
U.S.293 AND STONE V.POWELL ,428 U.S.465. THERE IS A DIFFERENCE
BETWEEN THE SUPPRESS MOTION ON THE WARRANTLESS SEIZURE BEING
REJECTED, WHICH WOULD HAVE GIVEN THE PETITIONER AN OPPORTUNITY
TO GO TO THE APPEAL COURT. BUT,WHEN PETITIONERS MOTIONS WAS NOT
HEARD AT ALL THIS OPENS THE DOOR FOR A FEDERAL REVIEW OF THE
CLAIM THROUGH A FEDERAL HABEAS PETITION UNDER STONE V. POWELL.
The procedural default should have been imputed to the state.

CONCLUSION
For these reasons,a Writ of Certiorari should issue to review the judgement and
opinion of the EleventhCircut Court of appeals.
The circuits are in conflict over the question Whether it would be allowable
For a police officer who investigated the case be allowed to participate in the
jury selection process and testify in the case ,
Would the Eleventh circuit have departed from the accepted and usual course
of judicial proceedings when the court fails to address a petitioners assertion
that he was denied a full and fair hearing on the fourth amendment claim
.When the state does admit there was a fourth amendment violation and does
not use the federal precedent Stone v. Powell as a defense to bar review of the
claim? Does a procedural default, bar a state prisoner from the federal court
evaluation of the fourth amendment claim when a petitioner makes a claim
and shows proof he was denied a full and fair hearing ?
This court hopefully will give guidance to circuit courts to determine
exhaustion requirements. The Eleventh circuit have departed from the usual
course of proceedings when the court determined Green did not exhaust his
ineffective assistance claim on trial counsels failure to file a motion to suppress
on warrantless seizure .The state court answered the error how did the federal
court determine how ground 8 was not exhausted?
The usual course for a federal habeas would be ,if a state prisoner presented
error of ineffective assistance of counsel claim and the state court responded to
the claim Green can place same error to federal court,Greens error 8 and 10 to
give example^state habeas final appx #5 ground 9 and 10 was appellate counsel
errors dealing with the fourth amendment p.13 at the bottom and p.16 at
bottom and p.17 states attorney says it mainly discuses fourth amendment
violation. Did the Eleventh circuit err in only evaluation of one appeal counsel
error on the fourth amendment when Green submitted two ? Appx # 4 p.9
judge evaluation of 1 appeal counsel error on fourth amendment and one error

57

on jury selection . The court failed to evaluate ineffective counsel claims .

Q p>eeius

Si

C flSiZ / s

iro

Cft S-£2—

SOXJ-S.**

-

-n-

H'i-™ ^ '•’***'1
Je(L

i>A»kW B1

t 1

s

UJ’ttooi

O
^-e(//

si^aJ

“->0** '

bftsis

CoP-f

US

(JSes

cjAepe s^‘

•

fu^oA

,'hj

f«

fed
c( <

/‘lisc
T'hc, S fft Acs

|

7S*( ^ sfr^-

£ftSe

-Hve

f>‘fs

__
o
I ka.se
;

e*y ptftth

Pi*1

LtiU^y

foft*

ftppx #-5' ?'
r&* ^
W

S

5fftfe

TAe

"/-A*

0P ft

'p^esc'J
tt*be*s-

+U -T-etoi^
t £?/J f

u

£)/J

U
°f
tf*9eiz
^}to fctoey
N/O
|fr+.«J*. TTieRfi- CAJ/tS
AU^ S'P2CtJ
ftUeiJOfihoO doclz'^z- fo
11/ -m£
pie/*jk
0Pf<L.cA "W
0 (jl/

To flp/”/
1^0 OOJ

Utf.

t/J

A A -H^
CftSe

(Jhk 0.

ho* +° s0^

S^S^iffd dsu// l*>i

‘ <5 °

156

,

< Sffrfe4 R if

SvB*4*/ 3jtylS?%0-S<’

